                                  Closeout for M99080039

In August 1999, we were made aware of an anonymous complaint alleging self-plagiarism
among an assortment of twelve published          submitted between May 1990 and May
1995. None of the publications acknowledge NSF support.

Only tw0'~8'~of the collective authors have ever sought or received NSF support. An
analysis of the available proposal and award material led us to conclude that the research
reported in the twelve publications was not germane to any NSF proposal or award
submitted by either author.

This inquiry is closed and no further action will be taken.

cc: Integrity, IG




    Footnotes Redacted
8




                                         Page 1 of 1
